 FEDERAL INFORMATION SECURITY
    MANAGEMENT ACT REPORT


Fiscal Year 2006 Evaluation of the Social Security
      Administration's Compliance with the
 Federal Information Security Management Act




            September 2006       A-14-06-16084


        Patrick P. O’Carroll, Jr. – Inspector General
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY

MEMORANDUM

Date:   September 22, 2006                                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Fiscal Year 2006 Evaluation of the Social Security Administration’s Compliance with the
        Federal Information Security Management Act (A-14-06-16084)


        OBJECTIVE

        Our objective was to determine if the Social Security Administration’s (SSA) overall
        security program and practices complied with the requirements of the Federal
        Information Security Management Act of 2002 (FISMA) for Fiscal Year (FY) 2006. 1

        BACKGROUND

        FISMA provides the framework for securing the Federal Government’s information
        technology. All agencies must implement the requirements of FISMA and report
        annually to the Office of Management and Budget (OMB) and Congress on the
        effectiveness of their security programs.

        OMB uses information reported pursuant to FISMA to evaluate agency-specific and
        government-wide security performance, develop the annual security report to Congress,
        and assist in improving and maintaining adequate agency security performance. OMB
        issued FY 2006 FISMA guidance on July 17, 2006. 2 This guidance references and
        incorporates the requirements of OMB Memoranda M-06-15 3 and M-06-19. 4 For
        additional information, see Appendix C.




        1
            Public Law 107-347, Title III, Section 301.
        2
            OMB Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal Information Security
            Management Act and Agency Privacy Management, July 17, 2006.
        3
            OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information, May 22, 2006.
        4
            OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
            Incorporating the Cost for Security in Agency Information Technology Investments, July 12, 2006.
Page 2 – The Commissioner


SCOPE AND METHODOLOGY
FISMA directs each agency’s Office of Inspector General (OIG) to perform an annual,
independent evaluation of the effectiveness of the agency’s information security
program and practices. 5 SSA’s OIG contracted with PricewaterhouseCoopers, LLP
(PwC) to audit SSA’s FY 2006 financial statements. 6 Because of the extensive internal
control system review work that is completed as part of that audit, the OIG FISMA
requirements were incorporated into the PwC financial statement audit contract. This
evaluation included reviews of SSA’s mission critical sensitive systems as described in
the Government Accountability Office’s Federal Information System Controls Audit
Manual (FISCAM). PwC performed an “agreed-upon procedures” engagement using
FISMA, OMB, the National Institute of Standards and Technology (NIST) guidance,
FISCAM, and other relevant security laws and regulations as a framework to complete
the required OIG review of SSA’s information security program and its sensitive
systems. 7 See Appendix D for more details on our Scope and Methodology.

SUMMARY OF RESULTS

During our FY 2006 evaluation, we determined that SSA generally met the FISMA
requirements. SSA continues to work towards maintaining a secure environment for its
information and systems and has made improvements over the past year to further
strengthen its compliance with FISMA. For example, SSA continues to have sound
remediation, certification and accreditation, and inventory processes. In FY 2006, SSA
completed an inventory of all systems and subsystems. The SSA systems inventory
consisted of 20 major systems as well as over 300 subsystems. Our review found that
the FY 2006 inventory is accurate and complete.

SSA also maintained Certifications and Accreditations (C&A) for all 20 major systems
and conducted recertifications of 7 major systems using the NIST Special Publication
800-37 guidance. 8 We reviewed all 20 C&As for the major systems and they were
substantially compliant with NIST 800-37. See Appendix E for the complete list of major
systems that were certified and accredited in FY 2006.




5
    Public Law 107-347, Title III, Section 301, 44 U.S.C. § 3545 (b)(1).
6
    OIG Contract Number GS-23F-0165N, dated March 16, 2001. FY 2006 option was exercised on
    November 10, 2005.
7
    OMB Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal Information Security
    Management Act and Agency Privacy Management, July 17, 2006 and NIST Special Publication 800-26,
    Security Self-Assessment Guide for Information Technology Systems, November 2001.
8
    NIST Special Publications 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems, May 2004.
Page 3 – The Commissioner


We noted several areas that SSA needs to address to fully meet FISMA requirements
while enhancing information management in this area. Nothing came to our attention to
indicate that these issues would cause SSA to be non-compliant with FISMA. SSA
should ensure that:

•     system access controls are adequately reviewed using a risk-based approach on a
      consistent basis across the Agency;

•     all Information Technology (IT) security weaknesses that are identified are reported
      to the Office of the Chief Information Officer (OCIO) and are subject for inclusion in
      Automated Security Self-Evaluation and Remediation Tracking (ASSERT);

•     complete, current and accurate information systems security policies and
      procedures are maintained and are accessible to appropriate employees;

•     all agency and contractor personnel with significant IT security responsibilities are
      identified and receive annual security awareness training; and

•     the Continuity of Operations Plan (COOP) and Disaster Recovery Exercise (DRE)
      are updated and tested appropriately.

Based on the OMB FISMA guidance, 9 the SSA is supposed to provide additional
information on its response to OMB M-06-15 and M-06-19. OMB memorandum
M-06-15 re-emphasizes the protection of Personally Identifiable Information and
requires that the agency Senior Official for Privacy conduct a review. The SSA Senior
Official for Privacy conducted the required review and issued a report. Also, OMB
Memorandum M-06-19 requires agencies to report all incidents involving Personally
Identifiable Information to the United States Computer Emergency Readiness Team
(US-CERT) within 1 hour of discovery. Based on our discussions with the Agency, SSA
is currently redefining its interpretation of what an incident is to ensure full compliance
with OMB M-06-19. Subsequent to the issuance of M-06-19, SSA has reported several
incidents to
US-CERT.

While the OIGs do not have reporting requirements in these areas, we did review the
SSA Senior Official for Privacy’s report and nothing came to our attention that led us to
believe that there were any significant omissions from this process. Further, since the
Agency is still drafting its response to OMB M-06-19, we were unable to complete any
work in this area.




9
    OMB M-06-20, supra at cover page.
Page 4 – The Commissioner


ENSURE SYSTEM ACCESS CONTROLS ARE ADEQUATELY REVIEWED

NIST Special Publication 800-53a 10 requires that agencies have formal documented
access control policies and procedures that are reviewed and updated on a regular
basis. These reviews should be risk-based and consistently applied across the
Agencies. SSA has established a control that grants access to IT resources based on a
user profile. 11 A user profile is created based on each individual job’s responsibilities.
SSA completed a review of user profiles across the Agency during the reporting period.
However, we found SSA did not have clear policies and procedures on how the review
should be conducted. As a result, instances of excessive access were not identified
and corrected by the Agency and users continued to have excessive access. SSA
should ensure that user profiles only provide access to systems resources necessary to
meet user job requirements. SSA needs to strengthen its access control processes to
ensure that the user profiles are adequately reviewed and tested.

ENSURE THAT ALL IDENTIFIED IT SECURITY WEAKNESSES ARE INCLUDED IN
THE AGENCY’S REMEDIATION PROCESS

OMB FISMA guidance states that all IT system security weaknesses be reported and
tracked through remediation in one central location. 12 The OCIO was designated by
SSA as the responsible component. The SSA OCIO, using the software tool ASSERT,
established a system to monitor and report on IT security weaknesses. ASSERT is also
used to support the Plan of Action & Milestones (POA&M) process that tracks identified
IT security weaknesses through remediation.

While we found that the SSA OCIO ASSERT tool was working effectively, we also
learned that the OCIO did not receive all reports on IT security weaknesses. We
identified reviews that were conducted by an SSA contractor during the current
reporting cycle that focused on assets that are critical to the SSA IT infrastructure.
These reviews identified multiple IT security weaknesses that need to be recognized,
included and addressed as part of the ASSERT process.

The Agency is in the process of developing policies and procedures to ensure that all IT
security weaknesses are appropriately included in the tracking and remediation
process. The Agency needs to ensure that these policies and procedures are adhered
to and fully implemented.




10
     NIST Special Publications 800-53a, Guide for Assessing the Security Controls in Federal Information
     Systems, April 2006, page 42.
11
     User profiles provide a means to classify groups of individuals who share common access needs for
     similar job requirements. Top Secret security software controls the user profiles, as well as monitors
     who can access and change critical data requirements.
12
     OMB M-06-20, supra at page 7.
Page 5 – The Commissioner


INFORMATION SYSTEMS SECURITY POLICIES AND PROCEDURES NEED TO BE
CURRENT, COMPLETE, AND AVAILABLE TO AGENCY PERSONNEL

Adequate security policies and procedures that are used throughout the Agency are
essential to ensure an effective management oversight process as well as a sound
security framework required by FISMA. SSA’s information systems security policy and
procedures are driven by the Information Systems Security Handbook (ISSH). The
ISSH is accessible on the Agency’s Intranet site. During the current reporting period,
the Agency was in the process of revising the ISSH and related procedures. At the
completion of our fieldwork, the ISSH and related procedures had not been completely
revised and updated. The Agency must ensure that a complete, accurate, and current
version of Agency security policies and procedures are available to appropriate
personnel.

ALL SSA EMPLOYEES AND CONTRACTOR PERSONNEL WHO HAVE
SIGNIFICANT IT SECURITY RESPONSIBILITIES NEED TO RECEIVE
APPROPRIATE TRAINING

According to OMB FISMA guidance, agencies are required to ensure that employees
and contractor personnel with significant IT security responsibilities receive security
awareness and specialized training. 13 SSA ensures that security awareness training is
provided to all employees by requiring them to annually read the Sanctions for
Unauthorized Systems Access Violations and sign that they have read and understand
this document. 14 Contractor personal are provided security awareness training by their
employer. According to SSA, Agency employees and contractor personnel with
specialized security responsibilities are to be provided additional security training.

At this time, SSA has not adopted a policy that clearly defines employees who have
“significant IT security responsibilities.” SSA’s current practice is that each component
makes its own interpretation of what constitutes employees who have “significant IT
security responsibilities.” Based on what the components have determined for the
current reporting period, SSA has identified 442 employees with significant IT security
responsibilities, of which, 92 percent have completed the required training. Additionally,
by not having an Agency-wide policy, it is possible for two employees with the same job
responsibilities to be classified differently. Therefore, one individual may receive the
appropriate training and the other may not.

Industry and other Federal Government Agencies have a more stringent interpretation
of OMB guidance. They have identified many more individuals as meeting the definition
of what constitutes an individual with “significant IT security responsibilities.”




13
     OMB M-06-20, supra at page 35.
14
     http://eis.ba.ssa.gov/olmer/Links/sanctions/Instructions.htm as of September 15, 2006.
Page 6 – The Commissioner


Particularly in light of the additional focus on the security of Personally Identifiable
Information, SSA should consider redefining its definition of individuals with “significant
IT security responsibilities” to ensure appropriate security training coverage.

SSA CONTINUITY OF OPERATIONS TESTING

FISMA codifies a longstanding policy requirement that each agency’s security program
and security plan include provisions in its COOP for information systems that support
the operations and assets of the agency. 15 SSA needs to make certain that both the
COOP and DRE are updated annually to ensure that the Agency can adequately
function in the event of an emergency or disaster. The Agency Intranet and Internet are
an integral part of Agency operations, and are currently not included in the COOP or
DRE. Agency components have an expectation that these services will be quickly
recovered in the event of an interruption or disaster. DRE testing of all critical
applications would provide assurance as to the Agency’s ability to recover. The Agency
should include applications, such as Internet, Intranet, email and other important
systems in the COOP and DRE. Also, the Agency should ensure that the COOP and
DRE are updated and tested at least annually. 16

CONCLUSIONS AND RECOMMENDATIONS
During our FY 2006 FISMA evaluation, we determined that SSA generally met the
requirements of FISMA. SSA worked cooperatively with the OIG to identify ways to
comply with FISMA. SSA developed and implemented a wide range of security policies,
plans, and practices to safeguard its systems, operations, and assets. To fully comply
and ensure future compliance with FISMA and other information security related laws
and regulations, we recommend SSA ensure:

1. system access controls are adequately reviewed using a risk-based approach on a
   consistent basis across the Agency;

2. all IT security weaknesses identified are reported to the OCIO and, where
   appropriate included in ASSERT;




15
     Public Law 107-347, Title III, Section 301, 44 U.S.C § 3544(b)(8).
16
     Federal Emergency Management Agency Federal Preparedness Circular 65, Federal Executive Branch
     Continuity of Operations, June 15, 2004.
Page 7 – The Commissioner


3. complete, accurate and current information systems security policies and
   procedures are maintained and accessible to appropriate employees;

4. it has developed an appropriate definition of employees and contractors with
   “significant IT security responsibilities,” and using that definition, has identified and
   ensured that all such individuals received the necessary security training; and

5. the COOP and DRE include all essential applications and are updated and tested
   appropriately.


                                                   S
                                                   Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of the Inspector General’s Completion of OMB Questions
             Concerning Social Security Administration’s Compliance with the
             Federal Information Security Management Act

APPENDIX C – Background and Current Security Status

APPENDIX D – Scope and Methodology

APPENDIX E – Systems Certified and Accredited in Fiscal Year 2006

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
ASSERT     Automated Security Self-Evaluation and Remediation Tracking
C&A        Certification and Accreditation
COOP       Continuity of Operations Plan
DRE        Disaster Recovery Exercise
FIPS       Federal Information Processing Standards
FISMA      Federal Information Security Management Act
FISCAM     Federal Information System Controls Audit Manual
FY         Fiscal Year
IT         Information Technology
ISSH       Information Systems Security Handbook
NIST       National Institute of Standards and Technology
OCIO       Office of the Chief Information Officer
OIG        Office of the Inspector General
OMB        Office of Management and Budget
PMA        President’s Management Agenda
POA&M      Plan of Action and Milestones
PwC        PricewaterhouseCoopers LLP
SSA        Social Security Administration
US-CERT    United States Computer Emergency Readiness Team
                                                                                  Appendix B

Office of the Inspector General’s Completion of OMB
Questions Concerning Social Security
Administration’s Compliance with the Federal
Information Security Management Act
                                       Section C: Inspector General

                              Agency Name: Social Security Administration
                                                 Question 1

1. As required in FISMA, the IG shall evaluate a representative subset of systems, including
information systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not
categorized) and by bureau, identify the number of systems reviewed in this evaluation for each
classification below (a., b., and c.).

To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
1) Continue to use NIST Special Publication 800-26, or,
2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53.
Agencies are responsible for ensuring the security of information systems used by a contractor of their agency
or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may
be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                             a.                       b.                        c.
                                       FY 06 Agency            FY 06 Contractor       FY 06 Total Number of
                                         Systems                   Systems                   Systems
                    FIPS 199
                   Risk Impact      Total       Number         Total     Number        Total        Number
Bureau Name           Level        Number      Reviewed       Number    Reviewed      Number       Reviewed
                   High                   0              0          0             0          0              0
Social Security
                   Moderate               8              8          0             0          8              8
Administration
                   Low                   12             12          0             0         12             12
                   Not
                   Categorized            0              0          0             0          0              0
                   Sub-total             20             20          0             0         20             20
Agency Totals      High                   0               0         0             0           0               0
                   Moderate               8               8         0             0           8               8
                   Low                   12             12          0             0         12             12
                   Not
                   Categorized            0               0         0             0           0               0
                   Total                 20             20          0             0         20             20




                                                  B-1
2. For each part of this question, identify actual performance in FY 06 by risk impact level and bureau,
in the format provided below. From the representative subset of systems evaluated, identify the
number of systems which have completed the following: have a current certification and accreditation,
a contingency plan tested within the past year, and security controls tested within the past year.

                                              Question 2

                                        a.                        b.                      c.
                                    Number of           Number of systems       Number of systems for
                                 systems certified       for which security    which contingency plans
                                  and accredited        controls have been        have been tested in
                                                       tested and evaluated     accordance with policy
                                                           in the last year         and guidance


                   FIPS 199
                  Risk Impact     Total     Percent     Total     Percent of     Total       Percent of
Bureau Name          Level       Number     of Total   Number       Total       Number         Total
                  High                  0      0.0%           0        0.0%              0         0.0%
Social Security   Moderate              8   100.0%            8      100.0%              8       100.0%
Administration
                  Low                 12    100.0%           12      100.0%           12         100.0%
                  Not
                  Categorized           0      0.0%           0        0.0%              0         0.0%
                  Sub-total           20    100.0%           20      100.0%           20         100.0%
Agency Totals     High                  0      0.0%           0        0.0%              0         0.0%
                  Moderate              8   100.0%            8      100.0%              8       100.0%
                  Low                 12    100.0%           12      100.0%           12         100.0%
                  Not
                  Categorized           0      0.0%           0        0.0%              0         0.0%
                  Total               20    100.0%           20      100.0%           20         100.0%




                                               B-2
                                                 Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.

          The agency performs oversight and evaluation to ensure information
          systems used or operated by a contractor of the agency or other
          organization on behalf of the agency meet the requirements of FISMA,
          OMB policy and NIST guidelines, national security policy, and agency
          policy. Self-reporting of NIST Special Publication 800-26 and / or 800-53
          requirements by a contractor or other organization is not sufficient,
                                                                                      Almost Always, for
          however, self-reporting by another Federal agency may be sufficient.
 3.a.                                                                                 example, approximately
                                                                                      96-100% of the time
          Response Categories:
               - Rarely, for example, approximately 0-50% of the time
               - Sometimes, for example, approximately 51-70% of the time
               - Frequently, for example, approximately 71-80% of the time
               - Mostly, for example, approximately 81-95% of the time
               - Almost Always, for example, approximately 96-100% of the time

          The agency has developed an inventory of major information systems
          (including major national security systems) operated by or under the
          control of such agency, including an identification of the interfaces
          between each such system and all other systems or networks, including
          those not operated by or under the control of the agency.
                                                                                      Approximately 96-
 3.b.1
          Response Categories:                                                        100% complete
               - Approximately 0-50% complete
               - Approximately 51-70% complete
               - Approximately 71-80% complete
               - Approximately 81-95% complete
               - Approximately 96-100% complete

          If the Agency IG does not evaluate the Agency’s inventory as 96-100%
          complete, please list the systems that are missing from the inventory.
 3.b.2                                                                                None missing
          Missing Agency Systems
          Missing Contractor Systems

          The OIG generally agrees with the CIO on the number of agency owned
 3.c.                                                                                           Yes
          systems.


          The OIG generally agrees with the CIO on the number of information
 3.d.     systems used or operated by a contractor of the agency or other                       Yes
          organization on behalf of the agency.


 3.e.     The agency inventory is maintained and updated at least annually.                     Yes


  3.f.    The agency has completed system e-authentication risk assessments.                    Yes




                                                 B-3
                                                  Question 4


Through this question, and in the format provided below, assess whether the agency has developed,
implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the
degree to which the following statements reflect the status in your agency by choosing from the responses
provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time


                      The POA&M is an agency wide process,
                      incorporating all known IT security
                      weaknesses associated with information      - Mostly, for example, approximately 81-
          4.a.
                      systems used or operated by the agency      95% of the time
                      or by a contractor of the agency or other
                      organization on behalf of the agency.

                      When an IT security weakness is
                      identified, program officials (including
                                                                  - Almost Always, for example,
          4.b.        CIOs, if they own or operate a system)
                                                                  approximately 96-100% of the time
                      develop, implement, and manage
                      POA&Ms for their system(s).

                      Program officials, including contractors,
                      report to the CIO on a regular basis (at    - Mostly, for example, approximately 81-
          4.c.
                      least quarterly) on their remediation       95% of the time
                      progress.

                      CIO centrally tracks, maintains, and
                                                                  - Almost Always, for example,
          4.d.        reviews POA&M activities on at least a
                                                                  approximately 96-100% of the time
                      quarterly basis.

                   OIG findings are incorporated into the     - Almost Always, for example,
          4.e.
                   POA&M process.                             approximately 96-100% of the time
                   POA&M process prioritizes IT security
                   weaknesses to help ensure significant IT
                                                              - Almost Always, for example,
      4.f.         security weaknesses are addressed in a
                                                              approximately 96-100% of the time
                   timely manner and receive appropriate
                   resources
Comments: 4a & 4c. We have concerns as to whether the OCIO is receiving all IT security
weaknesses identified by internal reports on a regular basis.




                                                   B-4
                                                   Question 5


OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a
qualitative assessment of the agency’s certification and accreditation process, including adherence to existing
policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the
Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and
accreditation work initiated after May, 2004. This includes use of the FIPS 199 (February, 2004), “Standards
for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as
well as associated NIST documents used as guidance for completing risk assessments and security plans .



               Assess the overall quality of the
               Department's certification and
               accreditation process.

               Response Categories:
                                                         - Excellent
                    - Excellent
                    - Good
                    - Satisfactory
                    - Poor
                    - Failing


Comments:




                                                   Question 6

       Is there an agency wide security configuration policy?
  6.a. Yes or No.
                                                                                              Yes
Comments:




                                                   B-5
          Configuration guides are available for the products listed below. With a checkmark,
          identify which software is addressed in the agency wide security configuration policy.
 6.b.     Indicate whether or not any agency systems run the software. In addition, approximate
          the extent of implementation of the security configuration policy on the systems running
          the software.
                                                      Approximate the extent of implementation of
                                                      the security configuration policy on the
                                                      systems running the software.

                                                      Response choices include:
                                                      - Rarely, or, on approximately 0-50% of the
                                           Do any       systems running this software
        Product                                       - Sometimes, or on approximately 51-70% of
                        Addressed in      agency
                                                        the systems running this software
                        agency wide       systems
                                                      - Frequently, or on approximately 71-80% of
                          policy?         run this      the systems running this software
                                         software?    - Mostly, or on approximately 81-95% of the
                                                        systems running this software
                          Yes, No,                    - Almost Always, or on approximately 96-
                           or N/A.       Yes or No.   100% of the systems running this software
Windows XP                                            Almost Always, or on approximately 96-100% of
                             Yes             Yes
Professional                                          the systems running this software
                                                      Almost Always, or on approximately 96-100% of
Windows NT                   Yes             Yes
                                                      the systems running this software
Windows 2000                                          Almost Always, or on approximately 96-100% of
                             Yes             Yes
Professional                                          the systems running this software
Windows 2000                                          Almost Always, or on approximately 96-100% of
                             Yes             Yes
Server                                                the systems running this software
Windows 2003                                          Almost Always, or on approximately 96-100% of
                             Yes             Yes
Server                                                the systems running this software
                                                      Almost Always, or on approximately 96-100% of
Solaris                      Yes             Yes
                                                      the systems running this software
                                                      Almost Always, or on approximately 96-100% of
HP-UX                        Yes             Yes
                                                      the systems running this software
                                                      Rarely, or, on approximately 0-50% of the
Linux                        N/A             No
                                                       systems running this software
                                                      Almost Always, or on approximately 96-100% of
Cisco Router IOS             Yes             Yes
                                                      the systems running this software
                                                      Almost Always, or on approximately 96-100% of
Oracle                       Yes             Yes
                                                      the systems running this software
Other: IBM AS/400                                Almost Always, or on approximately 96-100% of
                             Yes             Yes
(AIX), IBM zOS                                   the systems running this software
Comments: According to SSA, Linux has been removed from all SSA computers connected to the
network as of March 29, 2006.




                                             B-6
                                               Question 7

Indicate whether or not the following policies and procedures are in place at your agency. If
appropriate or necessary, include comments in the area provided below.

         The agency follows documented policies and procedures
 7.a.    for identifying and reporting incidents internally.                               Yes
         Yes or No.

         The agency follows documented policies and procedures
 7.b.    for external reporting to law enforcement authorities.                            Yes
         Yes or No.
         The agency follows defined procedures for reporting to the
         United States Computer Emergency Readiness Team
 7.c.                                                                                      Yes
         (US-CERT). http://www.us-cert.gov
         Yes or No.
Comments: 7.c- We still have not received information on how SSA plans to respond to OMB M-06-19.




                                               Question 8

         Has the agency ensured security training and awareness of all
         employees, including contractors and those employees with
         significant IT security responsibilities?
                                                                                       - Mostly, or
         Response Choices include:                                                     approximately 81-
  8      - Rarely, or, approximately 0-50% of employees have sufficient training       95% of employees
         - Sometimes, or approximately 51-70% of employees have sufficient training    have sufficient
         - Frequently, or approximately 71-80% of employees have sufficient training   training
         - Mostly, or approximately 81-95% of employees have sufficient training
         - Almost Always, or approximately 96-100% of employees have sufficient
         training

Comments: We have concerns because the number of individuals with significant IT security
responsibilities went from approximately 900 reported last year to 452 reported this year. It appears
that all of the individuals with significant IT security responsibilities may not have been included in the
documentation we received. We are also concerned that we were only provided information on
security awareness and training for NCC based contractors.
                                               Question 9

         Does the agency explain policies regarding peer-to-peer file
         sharing in IT security awareness training, ethics training, or any
  9                                                                                            Yes
         other agency wide training?
         Yes or No.



                                                B-7
                                                                       Appendix C

Background and Current Security Status
The Federal Information Security Management Act (FISMA) requires agencies to create
protective environments for their information systems. It does so by creating a
framework for annual Information Technology (IT) security reviews, vulnerability
reporting, and remediation planning, implementation, evaluation, and documentation. 1
In fiscal year 2005, SSA resolved the long standing internal controls reportable
condition concerning its protection of information. 2 SSA continues to work with the
Office of the Inspector General and PricewaterhouseCoopers LLP to further improve
security over the protection of information and resolve other issues observed during
prior FISMA reviews.

OMB Memorandum M-06-15 3 reemphasizes existing requirements under the Privacy Act, 4
including the establishment of employee rules of conduct, administrative, technical, and
physical safeguards for the protection of Personally Identifiable Information. M-06-15 also
requires that the agency’s designated Senior Official for Privacy conduct a review of
policies and processes, and take corrective action as appropriate to ensure that the
agencies have adequate safeguards to prevent the intentional or negligent misuse of, or
unauthorized access to, Personally Identifiable Information. 5 This review is required to
address all administrative, technical, and physical means used by SSA to control such
information, including but not limited to procedures and restrictions on the use or removal of
Personally Identifiable Information beyond Agency premises or control. 6 This review is also
required to be completed by SSA in time for inclusion in the annual FISMA report. In
addition, any weaknesses identified in Agency security plans of action and milestones are
required to be reported. Also, employees are to be reminded within 30 days of the
issuance of M-06-15 of their specific responsibilities for safeguarding Personally Identifiable
Information, the rules for acquiring and using such information as well as the penalties for
violating these rules.




1
    Public Law 107-347, Title III, Section 301, 44 U.S.C § 3544.
2
    SSA’s FY 2005 Performance and Accountability Report, page 163.
3
    OMB M-06-15, supra at page 1.
4
    5 U.S.C. § 552a(e)(9)-(10).
5
    OMB M-06-15, supra.
6
    OMB M-06-15, supra at page 1-2.



                                                     C-1
OMB Memorandum M-06-19 7 provides updated guidance in two areas. The first area
addresses the reporting of security incidents involving Personally Identifiable
Information. The new reporting procedures now require agencies to report all incidents
involving Personally Identifiable Information to US-CERT within 1 hour of discovery
either in electronic or physical form and agencies are not to distinguish between
suspected and confirmed breaches. The second area addressed by M-06-19 reminds
departments and agencies that security and privacy requirements should be included in
fiscal year budget submissions for IT. Additional detail is also requested on how
resources will be allocated in correcting existing security weaknesses.




7
    OMB M-06-19, supra.


                                         C-2
                                                                                         Appendix D

Scope and Methodology
The Federal Information Security Management Act (FISMA) directs each agency’s
Office of Inspector General (OIG) to perform, or have an independent external auditor
perform, an annual independent evaluation of the agency’s information security program
and practices, as well as a review of an appropriate subset of agency systems. 1 The
Social Security Administration (SSA) OIG contracted with PricewaterhouseCoopers LLP
(PwC) to audit SSA’s Fiscal Year (FY) 2006 financial statements. Because of the
extensive internal control system work that is completed as part of that audit, our FISMA
review requirements were incorporated into the PwC financial statement audit contract.
This evaluation included Federal Information System Controls Audit Manual (FISCAM)
level reviews of SSA’s mission critical sensitive systems. PwC performed an “agreed-
upon procedures” engagement using FISMA, the Office of Management and Budget
(OMB) Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, National
Institute of Standards and Technology guidance, FISCAM, and other relevant security
laws and regulations as a framework to complete the OIG required review of SSA’s
information security program and practices and its sensitive systems.

We also considered the security implications of OMB Memoranda M-06-15 and
M-06-19. We reviewed SSA’s Senior Official for Privacy report for 2006, monitored
US-CERT reporting activity, and SSA’s response to M-06-19.

The results of our FISMA evaluation are based on the PwC FY 2006 Independent
Accountants’ Report on Applying Agreed-Upon Procedures report and working papers,
and various audits and evaluations performed by this office. We also reviewed the final
draft of SSA's FY 2006 Security Program Review as required by the Federal Information
Security Management Act.

Our major focus was an evaluation of SSA’s plan of action and milestones (POA&M),
risk models and configuration settings, certifications and accreditations (C&A), and
systems inventory processes. Our evaluation of SSA’s POA&Ms included an analysis
of Automated Security Self-Evaluation and Remediation Tracking system and its
policies. Our review of the Agency’s C&A process included an analysis of all 20 C&As
for each major system. We also reviewed SSA’s updated systems inventory and the
policy for the update processes.

We performed field work at SSA facilities nationwide from March to September 2006.
Our evaluation was performed in accordance with generally accepted government
auditing standards.




1
    Public Law 107-347, Title III, section 301, 44 U.S.C § 3545 (a)(1), (a)(2), and (b)(1).
                                                                      Appendix E

Systems Certified and Accredited in Fiscal Year 2006
#                            System                                    Acronym
               General Support Systems
1   Audit Trail System                                        ATS
2   Comprehensive Integrity Review Process                    CIRP

3   Death Alert Control & Update System                       DACUS

4   Debt Management System                                    DMS

5   Disability Case Adjudication and Review System            DICARS

6   Disability Control File System                            DCFS

7   Enterprise Wide Area Network and Services System          EWANSS
8   FALCON Data Entry System                                  FALCON

9   Human Resources Management Information System             HRMIS

10 Integrated Client Database                                 ICDB

11 Logiplex Security Access Systems                           LSAS

12 Recovery of Overpayments, Accounting, & Reporting System   ROAR

13 Social Security Online Accounting and Reporting System     SSOARS
14 Social Security Unified Measurement Systems                SUMS


                      Major Applications
1   Electronic Disability System                              eDib
2   Earnings Record Maintenance System                        ERMS
3   Retirement, Survivors & Disability Insurance System –     RSDI – Accounting
    Accounting
4   SSN Establishment & Correction System                     SSNECS
5   Supplemental Security Income Records Maintenance System   SSIRMS

6   Title II System
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audit Division
   (410) 965-9702

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch
   (410) 965-9719

Acknowledgments

In addition to the persons named above:

   Harold Hunter, Senior Auditor

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-06-16084.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform, House of
Representatives
Chairman and Ranking Minority Member, Committee on Science, House of
Representatives
Chairman and Ranking Minority Member, Committee on Governmental Affairs, U.S.
Senate
Chairman and Ranking Minority Member, Committee on Commerce, Science and
Transportation, U.S. Senate
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
